o
filed

o.

IN THE
SUPREME COURT OF THE UNITED STATES
Phyllis Marie Knight, also known as Dr. Phyllis Marie Knight-Bey, D.M.-PETITIONER
vs.

John C. Chatelain; LaChelle A. Phillips; Douglas County Court Clerks Office; Judge Sheryl Lohaus;
City Clerk, City of Omaha - RESPONDENT(S)

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATE COURT OF APPEALS for the Eighth Circuit

Dr. Phyllis Marie Knight-Bey D.M.
[PHYLLIS MARIE KNIGHT]
2301 Benson Gardens Blvd #7Q
Omaha, Ne 68134
(402)714-1192

QUESTION(S) PRESENTED
For The questions is a matter of jurisdiction undisputed mix law and mix fact “state v. federal.” The legal right to
trial by jury as declared in U.S.C., Title 28, §770 [now 1873] (Trial of issues of fact; by jury.) Establishing the
judicial fact of common law original subject-matter jurisdiction for; “diversity of citizenship” between citizens of
two different states and nationality. Involved in an “interstate commerce ” conflict over a land dispute in
controversy of the real party in interest. In which a county court trustee trespassed upon petitioners rights; while
under federal review operating outside ones jurisdiction granting an illegal eviction, levying of petitioners goods,
and order of physical arrest. Awarding the disposal of petitioners assets for the benefit of others. While
“knowingly ” aware they were party to this federal civil action that was on appeal in the Court of the Eighth
Circuit. The “Appellees” retaliatory action was intentional and personal. Their “cause ofaction” is that of an
“hate crime.” A cause shown by the lack of fundamental fairness of procedural and substantive due process
rights. The American “Bill ofRights ” Seventh Amendment is an guaranteed historical right to a civil jury trial
under Federal Rule 38. A jury trial that suffer an interruption by deficiency. When the U.S District Court judge
rested the case on a summary judge rather than honoring petitioners demand for a trial by jury. The judge's
“abuse of discretion” caused injury as a matter of law, interference of treatise and breach of the U.S.
Constitution. The “Appellees” interrupted the rule of law when they illegally carried out a federal adjudication in
a state tribunal court. Their entry of a second small claims action was entered into the county court while under
federal review. Issuing a administrative judgment in retaliation of this present federal civil action. “Appellees”
breached state and federal constitutional procedures of due process. Ignoring the plain language of law; proper
procedure for establishing jurisdiction. For without jurisdiction the court has “no power to act”. Therefore
causing injury to the U. S. Constitution and Indian Treaties national recognition of Indian Religious Land Use.
The (Appellee) trustee caused injury of intentional infliction and emotional distress by trespassing on rights; a
deprivation measure under the 'treatise' “Clearfield Doctrine” international constitution commerce clause
burdens of interstate commerce. The “Appellee’s” fail to recognizing that language is the key difference of
statute law and common law jurisdiction. The Eighth Circuit Court of Appeals failed to take proper consideration
to all the facts and laws relating to the federal subject matter jurisdiction surrounding this dispute, (referencing)
the “Substantial Right Doctrine ” and “Administrative Law Treatise, ” substantive and procedural conflict of
interest of international, state and federal law. Evidence that bears on factual and legal issues offederalism
separation of powers between judge and jury, checks and balances, pure questions of law vs. pure questions of
fact: “legislative fact” is considered part of law interpretation and not treated as question of fact.
Question(s)
1. Is the “trustee” the real party to the controversy for the purpose of “diversity of citizenship” jurisdiction
involving subject-matter under the “commerce clause ” in a complete diversity between two citizens of
different states and different nationalities in dispute of land rights?
2. Is the Seventh Amendment Right guaranteed under the “Bill ofRights ” or granted only at the personal
discretion of a judge?
3. Under the “Fair Debt Collection Practices Act” should a bar attorney and state judges be held accountable
for false prophecy, fraud, peijury, harassment and abuse of substantial interstate commerce debt collection
practices for filing deceptive forms under 18 U.S.C. § 1521 “knowingly” operating outside jurisdiction to
carry out a hate crime when issuing a retaliation lien without the presences of an injured party nor proof of
any equitable contract!

0)

LIST OF ALL PARTIES
Defendant No. 1
JOHN C. CHATELAIN (Bar Attomey/Foreign Agent)
14707 California Street Ste. #1
Omaha, Nebraska 68154
(402) 333-8488 ext. #1
Defendant No. 2
LACHELLE A. PHILLIPS (Out-of-state citizen/client for Defendant #1)
5460 Rowley Road #1304
San Antonio, Texas 78240
(210) 440-2309
Defendant No. 3
SHERYL L. LOHAUS (Government Official/Presiding Judge of the 4* Judicial District, County Court)
1701 Famam Street
Omaha, Nebraska 68183
phone:(402) 444-5432
fax:(402)444-6890
Submit to:
State Administrative Office of the Courts
1445 K. Street # 1220
Lincoln, Nebraska 68508
(402) 471-3730
Defendant No. 4
DANIEL A. ESCH (Government Official/Douglas County Clerk)
1819 Famam Street H08
Omaha, Nebraska 68183
(402) 444-6767
Defendant No. 5
ELIZABETH BUTLER (Government Official/City Clerk, City of Omaha)
1819 Famam Suite LC1
Omaha, Nebraska 68183
(402) 444-5550

(ii)

RELATED CASES
• SELDIN COMPANYv. PHYLLIS KNIGHT, No. Cl 93-9149807 DOUGLAS COUNTY,
NEBRASKA SMALL CLAIMS COURT. Judgment date August 3, 1994
• ENTERPRISE BANK v. PHYLLIS KNIGHT, No. Cl 11-7363, DOUGLAS COUNTY, DISTRICT
COURT FOR THE STATE OF NEBRASKA. Judgment November 7, 2011
• CYNTHIA JENKINS v. PHYLLIS KNIGHT, No. Cl 13-12832, DOUGLAS COUNTY, NEBRASKA
SMALL CLAIMS COURT. Judgment date July 8,2013
• PATRICK FRAZIER v. PHYLLIS MARIE KNIGHT,; No. Cl 15-13945, DOUGLAS COUNTY,
NEBRASKA SMALL CLAIMS COURT. January 20, 2016
•

CDMPROPERTY v. PHYLLIS MARIE KNIGHT, No. Cl 16-9790, DOUGLAS COUNTY,
NEBRASKA SMALL CLAIMS COURT. Judgment on June 8, 2016

• JACKSON TOWERS v. PHYLLIS MARIE KNIGHT, No. Cl 17-10292, DOUGLAS COUNTY,
NEBRASKA SMALL CLAIMS COURT. Judgment on June 26, 2017
• LACHELLEA. PHILLIPS v. PHYLLIS MARIE KNIGHT., No. Cl 19 8911, DOUGLAS COUNTY,
NEBRASKA SMALL CLAIMS COURT. Judgment on May 8, 2019
• LACHELLEA. PHILLIPS v. DR. PHYLLIS MARIE KNIGHT., No. Cl 19 11289, DOUGLAS
COUNTY, NEBRASKA SMALL CLAIMS COURT. Judgment on August 23, 2019.

(ii)

TABLE OF CONTENTS
OPINIONS BELOW.

.page 1

JURISDICTION.

.page 2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED...

.page 3

STATEMENT OF CASE.

.page 4

REASON FOR GRANTING THE WRIT.

.page 5

CONCLUSION.

.page 6
INDEX TO APPENDICES

APPENDIX A..... U.S. Court of Appeals Eighth Circuit judgment entered on March 25, 2020
APPENDIX B.....U.S. Court of Appeals Eighth Circuit mandate entered on May, 5, 2020
APPENDIX C

..U.S. Court of Appeals Eighth Circuit rehearing denial entered of April 28, 2020

APPENDIX D..... U.S. District Court for the District of Nebraska MEMORANDUM AND ORDER leave to
proceed in Forma Pauperis entered on June 13, 2019
APPENDIX E....... U.S. District Court for the District of Nebraska, judgment entered on July 30, 2019
APPENDIX F..... STATE OF NEBRASKA, ordering case dismissed for lack ofjurisdiction entered on May 8, 2019
APPENDIX G..... Federal Appellee(s) re-filing their second false TENANT LANDLORD claim in the STATE
SMALL CLAIMS COUNTY COURT OF DOUGLAS COUNTY, while under federal review in the U.S. District
Court and on appeal in the Eighth Circuit Court entered on May 22, 2019
APPENDIX H..... STATE SMALL CLAIMS COUNTY COURT OF DOUGLAS COUNTY, rescheduled hearings
for June 10,2019, July 18, 2019 and August 15, 2019
APPENDIX I..... STATE SMALL CLAIMS COUNTY COURT OF DOUGLAS COUNTY, judge recused on
August 15, 2019
APPENDIX J...... STATE SMALL CLAIMS COUNTY COURT OF DOUGLAS COUNTY, Restitution of
Premises hearing entered on August 23, 2019 (attachment) of Federal Appeal notice severed by Sheriffs Office
APPENDIX K. STATE SMALL CLAIMS COUNTY COURT OF DOUGLAS COUNTY, Writ of Error Coram
Nobis filed August 30, 2019 - denied on September 12, 2019, “Letter of Retaliation” issued by judges order
APPENDIX L....False Notice of Abandonment dated September 11,2019, and ATTEMPTED EXTORTION Text
message by Appellee, LACHELLEA. PHILLPS on October 25,2019
(iii)

TABLE OF AUTHORITIES CITED
Cases Cited:
UNITED STATES v. THE HEIRS OF HENRY TURNER(TUNICA), 52 U.S. 663 (1850)
Bennett v. Butterworth, 52, US. (11 How.) 669, (1850)
Hipp v. Babin, 60 U.S. (19How.), 271, 278 (1857)
Scott v. Neely, 140, U.S 106, 109, (1891)
Capital Traction v Hof 174, U.S. 1 (1899)
Solcum v. New York Insurance Co. (1913)
Dice v. Akron, 342 U.S. 359 (1952)
Dairy Queen, Inc. v. Wood, 369 U.S. 469, 82 S. Ct. 894 (1962)
Ross v. Bernhard, 396 US. 531 (1970)
Hollywood, Inc. v. City ofHollywood 321 So. 2d 65 (1975)
Lehman v. Nakshian, 453 U.S. 156 (1981)
Pullman-Standard v. Swint, 456 U.S. 273(1982)
Tull v. United States, 481 U.S. 412 (1987)
Westv. Atkins, 487 U.S. 42, 48 (1988)
United States v. Village ofAirmont 839. F. Supp. 1054 (S.D.NY. 1993)
Gasperini v. Center for Humanities, Inc., 518 U.S. 415 (1996)
Feltner v. Columbia Pictures TV, 523 U.S. 340 (1998)
Balitmore Neighborhoods, Inc. v. Rommel Builders, Inc., 40.F. 700 (D. Md. 1999)
Guru NanakSikh Society of Yuba City v. County ofSutter. Citation22 III.456 F.3d 978 (9th Cir. 2006)
Alexander v. Riga, 208 F. 3d 419, 430-32 (3rd Cir 2000)
Mathews v. Cherorn Corp., 362 F.3d 1172, 1180 (9<h Cir 2004)
Midrash Sephardi v. Town ofSurfside, 366 F. 3d (11th Cir 2004)
United States v. City ofHollywood, Florida (2005)
Albanian Associated Fund v. Township of Wayne (2006)
Haile v Holder, 658 F.3d 1122, 1125 (9th Cir. 2011)
Albanian Associated Fund, Inc. v. Township of Wayne (D.N.J. 2017)
Arnal v. Aspen View Condo. Ass'n, etal. (D.Colo.) (2017)
Cunningham, et al. v. Baltimore County, et at, No. 3461 (2018)
Calvillo, etal. v. BaywoodEquities, L.P., (2019)
Jimcy McGirt v. Oklahoma, 591 U.S. (2020)

(iii)

STATUTES AND RULES
NEBRASKA LEGISLATURE
Section 1-13, Justice administered without delay; Legislature; authorization to enforce mediation
and arbitration.
All courts shall be open, and every person, for any injury done him or her in his or her lands, goods,
person, or reputation, shall have a remedy by due course of law and justice administered without denial
or delay, except that the Legislature may provide for the enforcement of mediation, binding arbitration
agreements, and other forms of dispute resolution which are entered into voluntarily and which are not
revocable other than upon such grounds as exist at law or in equity for the revocation of any contract.
Neb. Const, art. I, sec. 13 (1875);
Amended 1996, Laws 1995, LR 1CA,sec. 1.
The writ of error coraxn nobis provides a corrective judicial process that the Constitution guarantees shall not be
denied. Carlsen v. State, 129 Neb. 84, 261 N.W. 339 (1935).
County judge cannot require party to pay fees or costs in advance as condition to "performing those services which
would be necessary to enable the defendant to press his defense." Douglas County v. Vinsonhaler, 82 Neb. 810, 118
N.W. 1058 (1908).
This section guarantees a remedy only for such as result from an invasion or infringement of a legal right, or the
failure to discharge a legal duty or obligation, and is not a guarantee of a remedy for every species of injury in
respect of such matters. Goddard v. City of Lincoln, 69 Neb. 594, 96 N.W. 273 (1903).
Litigants are entitled to access to the courts when they have probable cause for believing an injury has been done to
their lands, goods, person or reputation. Fender v. Waller, 139 Neb. 612, 298 N.W. 349 (1941).

25-2802. Jurisdiction.
(1) The Small Claims Court shall have subject matter jurisdiction in all civil actions of any type when the amount of
money or damages or the value of the personal property claimed does not exceed the jurisdictional amount specified in
subsection (4) of this section, exclusive of interest and costs.
(2) The Small Claims Court shall have subject matter jurisdiction in civil matters when the plaintiff seeks to disaffirm,
avoid, or rescind a contract or agreement for the purchase of goods or services not in excess of the jurisdictional
amount specified in subsection (4) of this section, exclusive of interest and costs.
(3) The Small Claims Court shall have jurisdiction when the party defendant or his or her agent resides or is doing
business within the county of when the cause of action arose within the county.
(4) The jurisdictional amount is three thousand nine hundred dollars as of July (2020)

(iii)

1.
IN THE
SUPREME COURT OF THE UNITED STATES
PETITIONS FOR WRIT OF CERTIORARI
Petitioner respectfully prays that the writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from the federal courts:
The opinion of the United States court of appeals at Appendix
the petition and is

A

to

[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished

The opinion of the United States court of appeals at Appendix
the petition and is

B

to

or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X ] is unpublished

[ ] For cases from the state courts:
The opinion of the United States court of appeals at Appendix
the petition and is

to

[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished

The opinion of the United States court of appeals at Appendix
the petition and is
[ ] reported at
,;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished

to

2.
JURISDICTION
[ ] For case from federal courts:
The date on which the United States Court of Appeals decide my case
was March 25. 2020______________.
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: April 28. 2020 . and a copy of the
order denying rehearing appears at Appendix C_____ .
The jurisdiction of this Court is invoked under 28 U.S.C § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decide my case was
A copy of that decision appears at Appendix______.
[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for writ of certiorari was granted
to and including.
(date) in
(date) on
Application No.
A
This jurisdiction of this Court is invoked under 28 U.S.C § 1257(a)

3.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. The Bill of Rights
2. Jurisdiction
3. Religious Land Use and Institutionalized Persons Act (RLUIPA)
4. False Prophet
5. Property Rights
6. F ourteenth Amendment
7. Commerce Clause
8. Clean Water Act
9. Abuse of Discretion
10. Trespassing on Rights
11. Separation of Powers
12. Checks and Balances
13. Cross-reference
14. Mixed question of law and fact
15. Interruption of Seventh Amendment Right
16. Interruption of Rule of Law
17. Misrepresentation
18.Freedomof Religion
19. Judiciary Act of 1789
20. The Preservation Clause
21. Examination Clause
22. Breach of Constitution
23. Breach of Oath
24. Deprivation of Rights
25. Supremacy Clause
26. Fair Housing Rights
27. Fair Debt Collection Act
28. Indian Land Rights
29. Possessory Land Claim
30. Nonintercourse Act
31. Retaliation
32. Terrorist Activity
33. Breach of “Friendship Treaty
34. War Crime
35. False Claims Act
36. Human Rights Violation
37. Unclean Hands Doctrine
38. Hate Crime
39. Attempted Extortion
40. Criminal Act
41. Identity Theft
42. Indian Treaties

4.

STATEMENT OF THE CASE
For this case began as a federal civil action complaint filed in the United States District Court by the (Appellant)
seeking remedy in controversy of a land dispute between persons of two different states and nationality. A trial by
jury was demanded. In effort to fairly decide the facts of the case. This action was filed in the proper court of the
U.S. District holding original jurisdiction over the subject matter of “diversity of citizenship” and “commerce
clause jurisprudence. ” (Appellees) under minded the rule of law by filing a false claim under the wrong title in the
wrong court lacking jurisdiction. (Appellee) Attorney John C. Chatelain of Omaha, Nebraska filed a fraudulent
TENANT LANDLORD small claim in the amount of $800.00 in the tribunal administrative court without any
proof of contract for his out-of state client “Phillips” a resident of San Antonio, Texas. (Appellee) Attorney John
C. Chatelain “knowingly ” committed an act of fraud, peijury and breach the STATE Constitution and the U.S.
Constitution when he falsely entered into the small claims court requesting restitution under the TENANT
LANDLORD ACT knowing he had no such proof of a rental contract. (Appellant) has controversial standing on
the fact she and her Indigenous Tribe were the financial investors making the monthly mortgage payments in the
amount $ 1,078.75 at the property in question. Which was in use as a religious study site and private domicile. The
(Appellees) case was dismissed in the small claims court on May 8,2019 for lack of personal, subject-matter and
diversity jurisdiction. The (Appellant) entered her case into the U.S. District court on May 8, 2019, to have the
facts of the case fairly decided before a trial of her peers. While this case was under federal review the (Appellees)
joined together through the “meeting of the minds.” Entering a new TENANT LANDORD case in the small claims
court on May 22,2019. Giving me the (Appellant) a new fictitious name of Dr. Phyllis Marie Knight; attached with
a new fictitious monthly rental amount of $1,080.00 past due in the amount of $4,360.00. The Nebraska “Small
Claims Statute ” was knowingly violated. The “Appellee's ” intentional an unlawful actions were carried out by the
repeated harassment of multiple court hearings totaling four trials being held in the small claims tribunal court
having no jurisdiction over civil claims above the amount of $3,600.00. Which would fall under the jurisdiction of
the Nebraska civil court; noting equity courts may not enforce civil penalties. On Friday August 23, 2019,1 was
summons to trial in the small claims court by (Appellee) Judge Sheryl Lohaus. The trial was held before Judge
Derek Vaugh ending with the judge quoting to (Appellee) John C. Chatelain “That his case is over because this
case has been previously dismissed, a judge recused and now on appeal in the Eighth Circuit Court.” On Monday
morning August 26, 2019, my resident/religious study site was infiltrated by six or more male officers and a male
gang member. The gang member entered the site along with the officers. With officers approval he began ripping
down the Moorish American Flag, ripping down all the wall literature, removing pictures off the wall etc. Officers
stood blocking off all rooms in the house, two stood around me and other officers stood behind them. One officer
stated, “If me and my two tribe members were not off the site in five minutes we were all going to jail.” (Appellee)
LaChelle Phillips did not appear in court on Friday August 23,2019, but she made it into town for the
premeditated home invasion. Order by (Appellee) Judge Sherly Lohaus); who knowingly issued an illegal WRIT of
RESTITUTION. The home invasion and illegal eviction ended with the (Appellees) and the Omaha Police
executing an illegal search and seizure. In which they raided and robbed the entire home/study site stealing
everything inside including my vehicle. I lost all my clothing, food, family photo's, historical assets, intellectual
property, personal belongings, my tribal members property, all of our studying materials, including $7,300.00 in
cash etc... This was a hate crime initiated by (Appellee) Judge Sheryl Lohaus, ignited by recused Judge Darryl R.
Lowe; being the person who initiated the presence of the gang member and the person; the City Constable admitted
sent him out to the home/study site to present the unlawful writ of restitution that instructed him to call the police.
Judge Derek Vaugh conspired as the administrative trespasser, tribunal trustee an author of the retaliation letter
mailed out to both the (Appellant) and her tribal members. When a judge acts as a trespasser of the law, when a
judge does not follow the law, the judge loses subject-matter jurisdiction and the judge's orders are void, of no
legal force or effect. By law, a judge is a state officer. The judge then acts not as a judge, but as a private
individual (in his person). Immunity is lost when he ignores the law and rulings are null and void.

5.
REASON FOR GRANTING THE PETITIONER REHEARING
For reasons granting petition for writ of certiorari upon review is hereby being raise for lack of due process
interrupted by ‘‘‘'abuse of discretion ” in determining subject-matter jurisdiction, “interstate commerce” treaty law
and land rights; as to whether the lower court applied the law correctly. Examining the public perception of fairness
without public interference to fairly uphold the rule of law. The federal question is whether the lower court
deviated from fairly defining the law of jurisdiction to be carried out fairly without fear or favor and failure to
acknowledge nationality, treaties, and constitutional law of the “Bill of Rights” Seventh Amendment legal
guarantee of a civil jury trial. A guaranteed right that was interrupt due to constitutional breaching of lower trial
court judge depriving (Appellant) to seek fair remedy when he substituted a jury trial with the submitting of his
opinion through a summary judgment rather than hosting the demanded trial by jury. Therefore his actions
constitutes visiting the “Alchemy ofFact and Law, ” of which the (Appellant) was denied the fundamental fairness
of her right to sufficiently prove all the “elements” of her case noting that law does not support judgment on the
undisputed facts arising from an incomplete discovery of which the (Appellees) did not replied with an affirmative
defense. For the trial court judge made a bias judgment in law when he failed to perform his duties under the
constitution and friendship treaty. In addition the court is not suppose to supplant a judges judgment for that of a
jury. Therefore depriving (Appellant) of her natural and constitutional right to a trial by jury. In return favoring the
unclean hands of the (Appellees). When the judge issued a summary judgment without the entry of a motion to
strike proves by law there are undisputed material facts. For without “facts and “evidence” set forth the questions
of law to be answered.

6.

CONCLUSION

The petition of writ of certiorari should be granted. For review in resolving the legal question of nationality and
“diversity of citizenship” subject-matter jurisdiction under 25 U.S. Code § 194 Trial of right of property; burden of
proof from the facts involving parties of two different states in controversy of trespassing upon “interstate
commerce” regulated under Article 1 of the U.S. Constitution in which the states are divested of all powers to
regulate a land dispute conflict involving an Indian Tribe. The Petitioner, a natural individual sovereign Nebraskan
in these united States of America, holds title by nature. U. S. Constitution "no state shall impair the obligation of
contract."
Respectfully submitted,

7/<m
Date:

